OIG Investigative Reports, Barton County Community College Track Coach Among Those Indicted By Wichita Grand Jury.
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
FOR IMMEDIATE RELEASE
October 19, 2005
U.S. Department of Justice
United States Attorney
District of Kansas
Eric Melgren, U.S. Attorney
1200 Epic Center
Wichita, Kansas 67202
Tel: (316)269-6481
Fax: (316)269-6484
BARTON COUNTY COMMUNITY COLLEGE TRACK COACH AMONG THOSE INDICTED BY WICHITA GRAND JURY
Track coach Lyles Lashley and former assistant basketball coach Shane Hawkins accused of lying to grand jury
WICHITA, KAN. – A federal investigation into the athletic program at Barton County Community College in Great Bend, Kan., widened Wednesday as a grand jury returned two more indictments. Named in the indictments were Lyles Lashley, a track coach at Barton, and Shane Hawkins, a former assistant basketball coach there
“The indictments allege that, among other things, both Mr. Lashley and Mr. Hawkins lied to a federal grand jury,” said United States Attorney Eric Melgren.
Lashley is charged with one count of making a false statement before a federal grand jury; one count of embezzlement from student assistance programs, one count of theft from a program receiving federal funds; and four counts of mail fraud. The crimes are alleged to have occurred at various times from May 2001 to March 19, 2005.
According to the indictment:
On Sept. 21, 2004, Lashley falsely stated before a grand jury that he did not participate in correspondence courses and proctor tests for correspondence courses for any students other than Enique “Ricky” Clemons while coaching at Barton County Community College.
Beginning as early as Sept. 23, 2002, and continuing through March 19, 2005, he submitted false time sheets under the Federal Work Study Program that resulted in student athletes at Barton receiving a total of approximately $18,986 to which they were not entitled.
Beginning Sept. 23, 2002, and continuing through March 19, 2005, he aided and abetted the payment of approximately $133,826 to Barton County Community College students who were not entitled to receive the money.
He caused documents to be sent through the U.S. mail falsely certifying that certain persons had taken tests and examinations under approved conditions when in fact he knew this was not true. This included documents sent:
May 1, 2001, to Adams State College concerning student athlete Carlton Baker.
Aug. 5, 2002, to Brigham Young University concerning student athlete Jason Carter.
Aug. 6, 2002, to Brigham Young University concerning student athlete Mauricio Branwell.
Aug. 12, 2002, to Adams State College concerning student athlete Jason Carter.
If convicted, he faces a maximum penalty of 5 years in federal prison and a fine up to $250,000 on the charge of making a false statement to a grand jury; 5 years in federal prison and a fine up to $20,000 on the charge of embezzlement from a student assistance program; and 20 years in federal prison and a fine up to $250,000 on each of the remaining counts. The Department of Education investigated the case.
Hawkins, of Carterville, Ill., a former assistant basketball coach at Barton County Community College, is charged with making a false statement before a grand jury.
According to the indictment, Hawkins made a false statement before a federal grand jury on June 22, 2004, by testifying that Barton County Community College basketball players actually performed the work they were paid for under his direction and that he was not aware of student athletes receiving campus employment funds or Federal Work Study funds for work they did not perform.
If convicted, he faces a maximum penalty of 5 years in federal prison and a $250,000 fine. The Department of Education investigated the case.
Other former Barton County officials who have been indicted are former basketball coach Ryan Wolf, former basketball coach Dave Campbell, and former assistant basketball coach Matt Skillman. Skillman has pleaded guilty to embezzlement and mail fraud charges. Wolf and Campbell are awaiting trial.
As in any criminal case, a person is presumed innocent until and unless proven guilty. The Indictments filed merely contain allegations of criminal conduct.
Top
Printable view
Share this page
Last Modified: 10/21/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov